INDEPENDENT ACCOUNTANT’S REPORT
ON THE APPLICATION OF AGREED-UPON
     PROCEDURES: SELECTED
  PERSONNEL-RELATED COST ITEMS
        Department of Transportation

         Report Number: FI-2005-077
       Date Issued: September 27, 2005
U.S. Department of
Transportation
Office of the Secretary
of Transportation
Office of Inspector General


September 27, 2005

The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Room 6400
1900 E Street, N.W.
Washington, DC 20415

Dear Inspector General McFarland:

This report transmits the results of our review of selected personnel-related cost
items during fiscal year 2005. We performed limited procedures that were agreed
to by the Inspector General and Chief Financial Officer of the U.S. Office of
Personnel Management (OPM). We performed these procedures solely to assist
OPM in assessing the reasonableness of retirement, health benefits, and life
insurance withholdings and contributions, as well as enrollment information
submitted via the Semiannual Headcount Report.

We reviewed the employee withholdings and employer contributions reported on
the Report of Withholdings and Contributions for Health Benefits, Life Insurance,
and Retirement for the payroll periods ended November 27, 2004, and January 22,
2005, and the Semiannual Headcount Report as of February 19, 2005. 1 We found
the Department’s reporting of withholdings and contributions in these areas
reasonable based on the agreed-upon procedures. The enclosure describes the
results from performing each procedure.

In performing the agreed-upon procedures, we conducted our attestation
engagement work in accordance with the Generally Accepted Government
Auditing Standards, which incorporate the standards established by the American
Institute of Certified Public Accountants. Departmental management agreed with
the results presented.



1
    On September 13, 2005, we verified that departmental officials have completed the Retirement and Insurance
    Transfer System (RITS) submissions covering the 11 months ended August 31, 2005, as required by OPM.


Report No. FI-2005-077
                                                                                  2


The sufficiency of the procedures is solely the responsibility of the Inspector
General and Chief Financial Officer of OPM. Consequently, we make no
representation regarding the sufficiency of the procedures described in the
enclosure either for the purpose for which this report has been requested or for any
other purpose.

We were not engaged to and did not perform an audit the objective of which
would be the expression of an opinion on the withholdings and contributions for
health benefits, life insurance, and retirement, or the Semiannual Headcount
Report of the Department of Transportation. Accordingly, we do not express such
an opinion. Had we performed additional procedures, other matters might have
come to our attention that would have been reported to you.

This report is intended solely for the use of the Inspector General and Chief
Financial Officer of OPM and should not be used by those who have not agreed to
the procedures and taken responsibility for the sufficiency of the procedures for
their purposes.

If you have questions concerning this report, please call Rebecca Leng, Assistant
Inspector General for Information Technology and Computer Security at
(202) 366-1488 or Joann Adam, Project Manager, at (405) 954-5116.

Sincerely,




Theodore P. Alves
Principal Assistant Inspector General
 for Auditing and Evaluation

Enclosure

cc: Chief Financial Officer, Office of Personnel Management




Report No. FI-2005-077
                                                                                        Enclosure
                                                                                       Page 1 of 8



ENCLOSURE. AGREED-UPON PROCEDURES

Agreed-Upon Procedures for Retirement, Health Benefits, and Life
Insurance Withholdings/Contributions and the Semiannual Headcount
Report Submitted to the Office of Personnel Management


RESULTS OF PROCEDURES

We obtained our Agency 2 payroll office’s (APO) March Semiannual Headcount Report
submitted to OPM and a summary of Retirement and Insurance Transfer System (RITS)
submissions for the current fiscal year. For retirement, health benefits, and life insurance,
we selected three RITS submissions for the current fiscal year, one of which coincided
with the March Semiannual Headcount Report. Specifically, the three RITS submissions
were for the pay periods ending November 27, 2004; January 22, 2005; and February 19,
2005. The pay period ending February 19, 2005, coincides with the March Semiannual
Headcount Report. We obtained payroll information for the periods covered by the RITS
submissions selected.

Note: Hereinafter, the term payroll information refers to all payroll information, whether
it is a payroll register, payroll data files, or other payroll support data.

1.          We compared RITS submission data with payroll information by performing the
            following procedures:

            1.a.     We recalculated the mathematical accuracy of the payroll information.

            1.b.     We recalculated the mathematical accuracy of each RITS submission for the
                     payroll information selected in step 1.a.

            1.c.     We compared the employee withholding information shown on the payroll
                     information obtained in step 1.a. for retirement, health benefits, and life
                     insurance (as adjusted for reconciling items) to the related amounts shown
                     on the RITS submission for the corresponding period.

            Result: We found no exceptions to report. Specifically, we did not identify any
            differences for retirement, health benefits, and life insurance that were over
            1 percent of the total reported for each of the three categories.

2.a.        We randomly selected a total of 25 individuals who were on the payroll system for
            all three of the RITS submissions selected and met all the following criteria:


2
     Agency refers to the Department of Transportation.
                                                                                Enclosure
                                                                               Page 2 of 8

          •   They were covered by the Civil Service Retirement System (CSRS) or the
              Federal Employees Retirement System (FERS);
          •   They were enrolled in the Federal Employees Health Benefits Program;
          •   They were covered by basic life insurance; and
          •   They were covered by at least one Federal Employees Group Life
              Insurance (FEGLI) optional coverage (Option A, B, or C).

2.b.   We obtained the following documents, either in electronic or hard-copy format,
       from the Official Personnel File (OPF) for each individual selected in step 2.a.
       The hard copies were originals or certified copies.

          •   All Notifications of Personnel Actions (SF-50) covering the pay periods in
              the RITS submissions chosen above;
          •   The Health Benefit Registration Form (SF-2809) covering the pay periods
              in the RITS submissions chosen (note: a new SF-2809 is only needed if an
              employee is changing health benefit plans, therefore some forms were
              many years old); and
          •   The Life Insurance Election Form (SF-2817) covering the pay periods in
              the RITS submission chosen (note: a new SF-2817 is only needed if an
              employee is changing life insurance coverage, therefore some forms were
              many years old).

2.c.   Via the Agency personnel office, we requested a report from Employee Express
       for any health benefit transactions in that system for the individuals selected in
       step 2.a. We compared the date of transaction with date on the certified copy of
       the SF-2809 requested in step 2.b. We confirmed that the health benefit
       information to be used in step 2.g. covered the pay periods in the RITS
       submissions chosen above.

2.d.   We compared the base salary used for payroll purposes and upon which
       withholdings and contributions generally are based with the base salary reflected
       on the employees’ SF-50.

       Result: We found no exceptions to report.

2.e.   For Retirement, we compared the plan code on the employees’ SF-50 to the plan
       code used in the payroll system.

       Result: We found no exceptions to report.

2.f.   We calculated the retirement amount to be withheld and contributed for the plan
       code from the employees’ SF-50, based upon the official withholding and
       contribution rates required by law. We compared this to the actual amounts
       withheld and contributed.

       Result: We found no exceptions to report.
                                                                               Enclosure
                                                                              Page 3 of 8



2.g.   For health benefits, we compared the employee withholdings and Agency
       contributions with the official subscription rates issued by OPM for the plan and
       option elected by the employees, as documented by an SF-2809 in the employees’
       OPF or Employee Express.

       Result: We found no exceptions to report.

2.h.   For life insurance, we confirmed that basic life insurance was elected by the
       employees, as documented by a Life Insurance Election Form (SF-2817) in his or
       her OPF.

       Result: We found no exceptions to report.

2.i.   We calculated the withholding and contribution amounts for basic life insurance
       using the following:

          •   For employee withholdings: We rounded the employee’s annual base
              salary to the nearest thousand dollars and added $2,000. We divided this
              total by 1,000 and multiplied by $0.150 because the APO has biweekly
              pay periods.

          •   For Agency contributions:      We divided the employee withholdings
              calculated above by two.

       We compared this to actual amounts withheld and contributed.

       Result: We found no exceptions to report.

2.j.   Also, for life insurance, we compared optional coverage elected as documented
       by an SF-2817 in the employees’ OPF with optional coverage documented in the
       payroll system.

       Result: We found no exceptions to report.

2.k.   We calculated the withholding amounts for optional life insurance using the
       following:

          •   For Option A: We determined the employee’s age group using the age
              groups provided for Option A in the FEGLI Program Booklet. The
              withholding amount is the rate listed in the FEGLI Program Booklet for
              that age group. We compared this to the amount withheld.

       Result: We found no exceptions to report.
                                                                              Enclosure
                                                                             Page 4 of 8

        •   For Option B: We inspected the SF-2817 to determine the number of
            multiples chosen for Option B. We determined the employee’s age group
            using the age groups provided for Option B in the FEGLI Program
            Booklet. We rounded the employee’s annual rate of basic pay up to the
            next 1,000, divided by 1,000, and multiplied by the rate for the age group.
            We multiplied this amount by the number of multiples chosen. We
            compared this to the amount withheld.

     Result: We found no exceptions to report.

        •   For Option C: We inspected the SF-2817 to determine the number of
            multiples chosen for Option C. We determined the employee’s age group
            using the age groups provided for Option C in the FEGLI Program
            Booklet. We multiplied the rate for the age group by the number of
            multiples chosen. We compared this to the amount withheld.

     Result: We found no exceptions to report.

3.   We randomly selected a total of 10 employees who had no Health Benefits
     withholdings from the payroll information corresponding to the three RITS
     submissions selected for testing above.

     We requested SF-2809s covering the pay periods in the RITS submissions chosen,
     either in electronic or hard-copy format, from the selected employees’ OPFs. The
     hard copies were originals or certified copies. Via the Agency personnel office,
     we requested a report from Employee Express for any health benefit transactions
     in that system for the individuals selected. We inspected the documentation to
     determine that health benefit coverage was not elected. This was determined in
     the following ways:

        •   Absence of an SF-2809 in the OPF and no election of coverage made
            through Employee Express; or
        •   An SF-2809 in the OPF with Section E checked (indicating cancellation of
            coverage) and no later election of coverage through Employee Express; or
        •   Cancellation of coverage through Employee Express and no later election
            of coverage with an SF-2809.

     Result: We found no exceptions to report.
                                                                              Enclosure
                                                                             Page 5 of 8

4.      We randomly selected a total of 10 employees who had no life insurance
withholdings from the payroll information corresponding to the three RITS submissions
selected for testing above. We requested the SF-2817s covering the pay periods in the
RITS submissions chosen, either in electronic or hard-copy format, from the selected
employees’ OPFs. The hard copies were originals or certified copies. We inspected the
SF-2817 to determine that the employee waived or cancelled basic life insurance
coverage.

       Result: We found no exceptions to report.

5.     We calculated the headcount reflected on the Semiannual Headcount Report
       selected for testing above, as follows.

      5.a.     We obtained existing payroll information supporting the selected
               Supplemental Semiannual Headcount Report. Since existing payroll data
               were not available, we had APO personnel perform a payroll system
               query that summarized detailed payroll data supporting the Supplemental
               Semiannual Headcount Report, as follows:

                 •   Benefit category (see Semiannual Headcount Report),
                 •   Dollar amount of withholdings and contributions,
                 •   Number enrolled (deductions made/no deductions),
                 •   Central personnel data file code, and
                 •   Aggregate base salary.

      5.b.    We recalculated the headcount reflected on the Semiannual Headcount
              Report. Since an electronic file was not available, we used the suggested
              method of recalculating the headcount. Specifically, we (1) estimated the
              number of employees per payroll register page by counting the employees
              listed on several pages, (2) counted the number of pages in the payroll
              register, and (3) multiplied the number of employees per page by the
              number of pages.

      5.c.    We compared the results of payroll information from step 5.a. with the
              calculated headcount from step 5.b. to the information shown on the
              Semiannual Headcount Report.

       Result: We found no exceptions to report. Specifically, there were no
       differences (i.e., gross rather than net) greater than 2 percent between the
       headcount reporting on the Agency’s Semiannual Headcount Report and payroll
       information from step 5.a. and the calculated headcount from step 5.b.

6.     We calculated employer and employee contributions for retirement, health
       benefits, and life insurance.
                                                                          Enclosure
                                                                         Page 6 of 8

6.a.   We calculated the retirement withholdings and contributions for the three
       pay periods selected, as follows:

       i.     We multiplied the CSRS and FERS payroll base by the
              withholding and employer contribution rates required by law.

       ii.    We compared the calculated totals with related amounts shown on
              the RITS submissions.

       Result: We found no exceptions to report. Specifically, we found no
       variances (i.e., gross rather than net) between the calculated amounts and
       the amounts reported on the RITS submissions greater than 5 percent of
       the amounts on the RITS submission.

6.b.   We calculated employee withholdings and employer contributions for
       health benefits for the three pay periods selected, as follows:

       i.     We multiplied the number of employees enrolled in each health
              benefits plan and plan option by the employee withholdings and
              employer contributions for the plan and option.

       ii.    We summed the totals in step 6.b.i. and compared the result with
              the health benefit withholding and contribution amounts shown on
              the RITS submissions.

       Result: We found no exceptions to report. Specifically, we found no
       variances (i.e., gross rather than net) between the calculated amounts and
       the amounts reported on the RITS submissions greater than 5 percent of
       the amounts on the RITS submission.

6.c.   We calculated the basic life insurance employee withholdings and
       employer contributions for the three pay periods selected as follows:

       i.     We had APO personnel perform a payroll system query to
              determine the total number of employees with basic life insurance
              coverage and the aggregate annual basic pay for all employees
              with basic life insurance.

       ii.    For employee withholdings: We added the product of 2,000 times
              the number of employees with basic life insurance coverage to the
              aggregate annual basic pay for all employees selected. This
              represents the estimated total basic life insurance coverage. We
              divided this total by 1,000 and multiplied by $0.150 because the
              APO has biweekly pay periods.
                                                                            Enclosure
                                                                           Page 7 of 8

         iii.   We compared the result in step 6.c.ii. to the withholdings for basic
                life insurance coverage reported on the RITS submission.

         Result: We found no exceptions to report. Specifically there was no
         difference (i.e., gross rather than net) between the estimate and the
         amount of withholdings reported on the RITS submission greater than
         5 percent of the amounts on the RITS submission.

         iv.    For Agency contributions: We divided the results of step 6.c.ii. by
                two—this approximates Agency contributions, which are one-half
                of employee withholdings. We compared this result to the amount
                reported on the RITS submission.

         Result: We found no exceptions to report. Specifically, we found no
         differences (i.e., gross rather than net) between the estimate and the
         amount reported on the RITS submission greater than 5 percent of the
         amounts on the RITS submission.

6.d.     We calculated the Option A, Option B, and Option C life insurance
         coverage withholdings for the three pay periods selected by using detail
         payroll reports used to reconcile the RITS reports in step 1. In addition to
         the information used for step 1, the reports included the employee’s date
         of birth, annual rate of basic pay, and number of multiples selected for
         Option B and C. Note: While similar to step 2.k., the calculation here is
         for the entire amount reported on the RITS submissions for the three pay
         periods selected, as opposed to the sample of 25 employees in step 2.k.

        i.      We multiplied the number of employees in each age group by the
                appropriate rate for Option A in accordance with the rates for age
                groups provided in the FEGLI Program Booklet. We compared
                this result to the amount reported on the RITS submission.

        Result: We found no exceptions to report. Specifically, we found no
        differences (i.e., gross rather than net) greater than 2 percent of the
        amounts on the RITS submission.

       ii.      We divided the reports for Option B and Option C insurance into
                the age groups shown in the FEGLI Program Booklet. For Option
                B, we rounded the employee’s annual rate of basic pay up to the
                next 1,000, divided by 1,000, multiplied by the rate for the age
                group, multiplied this by the number of multiples (annual rate of
                basic pay [rounded up]/1,000*rate*multiples). We compared this
                result to the amount reported on the RITS submission.
                                                              Enclosure
                                                             Page 8 of 8

      For Option C, we multiplied the rate for the age group by the
      number of multiples chosen for each employee. We compared this
      result to the amount reported on the RITS submission.

Result: We found no exceptions to report. Specifically, we found no
differences (i.e. gross rather than net) greater than 2 percent of the
amounts on the RITS submission for Option B and/or Option C.
